Report No. D-2010-086                   September 29, 2010




         Utility Tax Avoidance Program in Germany
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DFAS                  Defense Finance and Accounting Service
DODEA                 Department of Defense Education Activity
IMCOM-E               Installation Management Command - Europe Region
LQA                   Living Quarters Allowance
TRO                   Tax Relief Office
USD(P&R)              Under Secretary of Defense for Personnel and Readiness
USAFE                 United States Air Forces in Europe
UTAP                  Utility Tax Avoidance Program
VAT                   Value Added Tax
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE 

                                      400 ARMY NAVY DRIVE 

                                 ARLINGTON, VIRGINIA 22202-4704 


                                                                                September 29, 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                 AND READINESS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Utility Tax A vo idance Program in Germany
         (Report No. 0-2010-086)

We are providing this report for review and comment. We considered management comments on
a draft of this report when preparing the final report. DOD could avoid paying at least $2.8
million in foreign taxes by requiring eligible civilians to participate in the Utility Tax Avoidance
Program.

DOD Directi ve 7650.3 requires that all recommendations be resolved promptly. The Under
Secretary of Defense for Personnel and Readiness comments were responsive on
Recommendations 1 and 2. We redirected Recommendation 3 to the Under Secretary of Defense
for Personnel and Readiness . Therefore, we request additional comments on Recommendation 3
by October 29, 2010.

If possible, please send a .pdffLie containing your comments to audros((ildodie:.mil. Copies of
your comments must have the actual signature of the authorizing official for your organization.
We arc unable to accept the (Signed! symbol in place of the actual signature. If you arrange to
send classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Donald A. Bloomer
at (703) 604-8863 (DSN 664-8863).




                                               7?1- [:J/
                                          ~Iice F. Carey
                                          ~ ~cting Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2010-086 (Project No. D2009-D000JB-0144.001)                       September 29, 2010


                Results in Brief: Utility Tax Avoidance
                Program in Germany
                                                              submit proof of participation or ineligibility
                                                              for the utility tax avoidance program;
What We Did
Our objective was to determine whether DOD is               •		 develop regulatory guidance reimbursing


effectively using the Utility Tax Avoidance                     living quarters allowance recipients for


Program in Germany and the Netherlands. This                    enrollment fees; and


report addresses the Utility Tax Avoidance
Program in Germany, and Report No. D-2010­                  •		 develop a standard form for tax relief offices
0030, “Utility Tax Relief Program in the                        to complete, which will prove living
Netherlands,” January 6, 2010, addresses the                    quarters allowance recipients’ participation
Netherlands. The Utility Tax Avoidance                          or ineligibility for the utility tax avoidance
Program allows eligible personnel to avoid                      program in coordination with the Regional
paying Value Added Tax on their residential                     Director, U.S. Army Installation
consumption of electricity, gas, and water. The                 Management Command - Europe Region.
Commander, U.S. Army Europe is the
designated Military Commander for the purpose
of the Foreign Tax Relief Program in Germany.              Management Comments and
                                                           Our Response
What We Found                                              The Under Secretary of Defense for Personnel
DOD was not effectively using the Utility Tax              and Readiness provided comments that were
Avoidance Program in Germany. This occurred                responsive to draft Recommendations 1.a.
because DOD did not require eligible civilian              and 1.b.. As a result of management comments,
personnel to participate in the program.                   we redirected Draft recommendation 2 to the
Between March 2008 and February 2009, DOD                  Under Secretary of Defense of Personnel and
paid $58 million in living quarters allowance for          Readiness. As a result, Draft Recommendations
utility-related items. We identified potential             1.a., 1.b. and 2 have been renumbered as
monetary benefits of $512,019 for utility-related          Recommendations 1, 2, and 3, respectively. We
payments to Army civilians during the                      request comments to the final report by
12-month period ending February 28, 2009. As               October 29, 2010.
a result, we estimated that DOD could avoid
paying at least $2.8 million in foreign taxes over         The Regional Director, U.S. Army Installation
the Future Years Defense Program by requiring              Management Command - Europe Region
eligible civilians to participate in the Utility Tax       comments were responsive.
Avoidance Program.
                                                           Please see the recommendations table on the
What We Recommend                                          back of this page.
We recommend that the Under Secretary of
Defense for Personnel and Readiness:

 •		 develop regulatory guidance requiring


     civilian personnel agencies to withhold 

     living quarters allowance until recipients



                                                       i
Report No. D-2010-086 (Project No. D2009-D000JB-0144.001)          September 29, 2010

Recommendations Table

        Management                  Recommendations          No Additional Comments
                                   Requiring Comment                  Required
Under Secretary of Defense for  3.                          1. and 2.
Personnel and Readiness
Please provide comments by October 29, 2010.




                                          ii
Table of Contents

Results in Brief                                                               i



Introduction                                                                   1


       Audit Objective                                                         1

       Background on Utility Tax Avoidance Program                             1

       Review of Internal Controls                                             3


Finding. DOD Can Improve Participation in the Utility Tax Avoidance Program    4



       DOD Civilians Receiving Living Quarters Allowance in Germany            4


       Voluntary Nature of Program Limits Utility Tax Avoidance Program


         Participation                                                         4

       Recommendations, Management Comments, and Our Response                  8


Appendices

       A. Scope and Methodology                                               11 

       B. Foreign Tax Relief Criteria                                         13 

       C. Technical Assistance                                                15 

       D. Summary of Potential Monetary Benefits                              18 


Management Comments

       Under Secretary of Defense for Personnel and Readiness                 19


       U.S. Army Installation Management Command – Europe Region              21 

Introduction
Audit Objective
Our objective was to determine whether DOD is effectively using the Utility Tax
Avoidance Program (UTAP) in Germany and the Netherlands. This report addresses the
UTAP in Germany, and Report No. D-2010-0030, “Utility Tax Relief Program in the
Netherlands,” January 6, 2010, addresses the Netherlands. See Appendix A for a
discussion of the scope and methodology.

Background on Utility Tax Avoidance Program
DOD Instruction 5100.64, “DOD Foreign Tax Relief Program,” March 30, 2006, requires
that DOD make a concerted effort to secure effective tax relief from foreign taxes where
practical. Furthermore, DOD Instruction 5100.64 requires the Commander of each
Combatant Command to designate a single military commander as the point of contact
for tax relief matters for each foreign country. Per DOD Instruction 5100.64, the
Commander, U.S. European Command assigned the Commander, U.S. Army Europe as
the designated Military Commander for the purpose of the Foreign Tax Relief Program in
Germany. Army in Europe Regulation 215-6, “Individual Tax-Relief Program,”
August 3, 2009, assigned the Installation Management Command – Europe Region
(IMCOM-E) as the administrator of tax-relief policies, procedures, and pricing in
Germany.

Pursuant to DOD Instruction 5100.64, IMCOM-E established the DOD UTAP in
conjunction with the United States Air Forces in Europe (USAFE) Services Agency.
UTAP allows eligible DOD personnel 1 to avoid paying Value Added Tax (VAT) on their
residential consumption of electricity, gas, and water. VAT ranged from 7 percent to
19 percent. In January 2007, VAT rates for energy related products/utilities changed to
19 percent for electricity and natural gas, and 7 percent for water. See Appendix B for
criteria that pertain to foreign tax relief.

Eligibility
All DOD personnel who receive full logistical support 2 and reside in off-post housing in
Germany may be eligible to participate in the UTAP. Army in Europe Regulation 215-6
identifies the following eligibility criteria:

    •   Individuals must receive their utilities from a provider that has a contractual
        agreement with the tax relief office (TRO) to provide tax-free utilities;




1
 For the purpose of this report, “DOD personnel” refers to both military and civilian personnel.
2
 Full logistical support includes 23 items (or privileges) to include Commissary and Military Exchange
privileges.


                                                    1

    •		 Individuals must receive electricity, gas, and water in a subscription-style,


        recurring basis over several months or years; and


    •		 Individuals must have a separate metering device and be billed in their own name.

Participation
Participation in the UTAP was voluntary for all DOD personnel. To participate, eligible
personnel must provide a copy of their stationing orders and their rental contract (or bill
of sale) to a TRO and pay the required enrollment fee. The enrollment fee was $77 for
personnel registering at one of the 16 Army TRO locations and $35 or $51 (depending on
rank) for personnel registering at one of the two Air Force TRO locations. Upon UTAP
enrollment, the TRO places an order for tax-free service with the utility provider. DOD
personnel who do not order tax-free utility service through the TRO are ineligible for tax
relief.

Housing Related Allowances
DOD personnel stationed in foreign areas may receive an allowance covering the
majority of their housing related expenses. Military personnel who live off-post receive
an Overseas Housing Allowance, which includes the actual cost of rent 3 up to the
maximum amount allowed and a fixed amount for utilities and recurring maintenance
expenses. DOD civilians receive Living Quarters Allowance (LQA), which is designed
to cover the actual cost for rent, utilities, and other expenses required by law or custom
up to the maximum allowable LQA amount.

Benefits of Participation in the UTAP
Participation in UTAP allows DOD personnel to avoid paying VAT on their residential
utilities. Since DOD provides military members a fixed amount for their utility costs as
part of their Overseas Housing Allowance, the service member may save as a result of
their participation in UTAP. However, since DOD reimburses civilian employees for
actual utility costs, DOD benefits from civilian employee participation through reduced
LQA payments. For the purpose of our audit, we focused on DOD civilians that receive
LQA since their participation in UTAP yields cost savings for the U.S. Government.

LQA Process
To initiate LQA reimbursements, DOD civilians must complete the Standard Form 1190,
“Foreign Allowances Application, Grant and Report,” and a worksheet that itemizes the
rent or purchase price, estimated utility costs, and other expenses. The paying office uses
this worksheet to determine the amount of LQA paid to each civilian employee. Even
though the DOD benefits when LQA recipients participate in UTAP, the reimbursement
forms do not identify the UTAP enrollment fee as a reimbursable expense. Currently, if
an LQA recipient decides to participate in UTAP, the employee must use his or her
personal funds to pay the UTAP enrollment fee.


3
  Rent includes the amount paid for a leased off-post residence or an amount calculated as assumed rent for
a personally owned residence.

                                                     2

The LQA amount paid to civilian personnel during their first year residing in off-post
housing is based on estimated costs. DOD policy requires civilian employees to provide
receipts for all utilities to support actual costs for LQA reconciliation. However, DOD
Components establish procedures for processing LQA reconciliations and time frames for
completing them. The Army, Air Force, and DOD Education Activity (DODEA) require
civilians to submit receipts for all utilities for LQA reconciliation within 12 to 15 months
of moving into a new off-post residence. Offices responsible for administering the LQA
use these receipts to determine the actual costs and base the LQA amounts for future
years on these actual costs. For example, if a civilian employee estimated that her rent
would be $2,000 per month and her utility costs would be $400 per month, she would
receive $2,400 per month during her first year in off-post housing. If the actual costs
were $2,000 for rent and $500 for utilities, she would receive a lump-sum reimbursement
of $1,200 and $2,500 per month for all future years.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of controls. We reviewed policies and
procedures pertaining to the oversight of the UTAP in Germany. The UTAP internal
controls were effective and we identified no internal control weaknesses.




                                             3


Finding. DOD Can Improve Participation in
the Utility Tax Avoidance Program
DOD was not effectively using the UTAP in Germany. Specifically, not all eligible
civilian personnel stationed in Germany participated in the UTAP. For example,
124 eligible individuals in a sample of 244 Army civilians receiving LQA in both
March 1, 2008, and February 28, 2009, pay periods did not participate in the program.
This occurred because DOD did not require eligible civilian personnel to participate in
the program. As a result, DOD is not maximizing foreign tax savings in accordance with
DOD Instruction 5100.64.

DOD Civilians Receiving Living Quarters Allowance in
Germany
During the 12-month period ending February 28, 2009, 7,596 DOD civilian employees
stationed in Germany received approximately $259 million in total LQA payments. Of
                                                the 7,596 DOD civilian employees
     Of the 7,596 DOD civilian employees        receiving LQA payments, 7,214 received
   receiving LQA payments, 7,214 received       utility cost reimbursement totaling
      utility cost reimbursement totaling       approximately $58 million. Employees
           approximately $58 million.           do not receive utility cost reimbursement
                                                for several reasons, such as when utility
expenses are included in the rent or when the rental portion of LQA exceeds the
maximum allowance. Table 1 shows the total LQA and utility-related costs for these
civilians.

                   Table 1. DOD Civilian LQA Costs in Germany
 (Data obtained from Defense Financial Accounting Service records of LQA payments)
Employing       Number of        Total LQA       Number of Civilian        Utility-
 Activity         Civilian        Amount              Employees            related
                Employees                          Receiving Utility        Costs
                Receiving                                Cost
                   LQA                             Reimbursement
Army               4,169        $132,735,153             3,950          $33,914,091
Air Force            597          24,392,336              588              5,626,024
DODEA              2,129          76,424,165             2,024            13,292,129
Other                701          25,157,593              652              5,220,346
 Total             7,596        $258,709,247             7,214          $58,052,590

Voluntary Nature of Program Limits Utility Tax
Avoidance Program Participation
Although the UTAP was an effective way for DOD to maximize foreign tax savings, the
voluntary nature of the program limited DOD civilian participation. Making the UTAP

                                            4
mandatory for eligible civilians as a condition of receiving LQA and reimbursing the
enrollment fee would increase participation and DOD savings.

We reviewed the participation rates for a statistical sample of DOD civilians for which
actual utility costs could be determined. LQA payments for the first year a DOD civilian
resided in off-post housing were based on estimated expenses. Actual utility costs were
not known until an LQA reconciliation was performed 12 to 15 months after the civilian
moved into a new off-post residence. The substantiating documentation that DOD
civilians submitted for the reconciliation included actual electric, gas, and water bills.
Because there was no standard form on which to document UTAP eligibility and
participation, we relied on the utility bills to determine actual utility expenses, eligibility
for participation in the UTAP, and participation rates. This documentation was only
available for DOD civilians who had completed an annual LQA reconciliation.
Implementing a standard form that documents UTAP eligibility and participation would
assist personnel offices in verifying that all eligible civilians participate in the UTAP.

To ensure that civilians in the statistical sample completed an LQA reconciliation, we
limited the population to DOD civilians who received LQA utility payments in both the
March 1, 2008, and February 28, 2009, pay periods. Of the 7,596 DOD civilians who
received LQA, only 5,531 received LQA payments in both March 1, 2008, and
February 28, 2009, pay periods. We used these 5,531 civilians as the population from
which to select a sample. This population included DOD civilians employed by the
Army, Air Force, DODEA, and other DOD Agencies. However, the Air Force and
DODEA personnel offices did not maintain the actual utility bills for enough civilian
employees for us to use this statistical sample. In addition, we were unable to locate the
servicing personnel offices for some of the remaining civilians who worked for DOD
agencies with only a small number of employees stationed in Germany.

The Army Civilian Human Resources Agency was the only office that maintained the
actual utility bills for a sufficient number of civilian employees for us to statistically
sample. Therefore, we revised our DOD civilian population to include only those
                                                   civilians employed by the U.S. Army. Of
   DOD spent over $26 million on utility-          the 4,169 Army civilians in Germany, only
    related costs for 2,438 Army civilians         2,438 received LQA utility payments in
      during the 12-month period ending            both the March 1, 2008, and February 28,
              February 28, 2009.                   2009, pay periods. DOD spent
                                                   $26,057,989 on utility-related costs for
these civilians during the 12-month period ending February 28, 2009. We selected a
statistical sample of 244 civilian employees from the population of 2,438. See Appendix
C for details of our statistical analysis.

We obtained the utility bills for the statistically sampled civilians from the Army Civilian
Human Resources Agency - Europe Region and North Central Region, which performed
LQA reconciliations for Army civilians in Europe. We used these utility bills to
determine whether civilians in our sample were eligible to participate in UTAP and
whether they participated. Table 2 presents the results of our analysis of records of the

                                               5


244 individuals in our sample of Army civilians receiving LQA during the March 1, 2008
and February 28, 2009 pay periods. The table shows the number eligible for UTAP, the
number of eligible personnel not participating, and the annual VAT paid by the Army for
those individuals not participating in UTAP for each utility.

 Table 2. UTAP Eligibility and Non-Participation Data for Sampled Army Civilians
         Receiving LQA in March 1, 2008 and February 28, 2009 Pay Periods
   Utility      Sample      Eligibility   Eligible Army       Annual VAT Paid
                  Size                       Civilians       For Non Participants
                                        Not Participating          (Dollars)
Electricity       244          226             124                  $35,313
Natural Gas       244           96              39                   15,230
Water             244           52              22                      698
Total                                                               $51,241

For electricity, 18 of the 244 Army civilians were not eligible to participate in the UTAP
because the utility bill was in the landlord’s name or a participating UTAP company does
not service their address. According to our review of LQA records, only 102 of the 226
eligible civilians participated in the UTAP to receive tax-free electricity. For the
12-month period ending February 28, 2009, DOD paid $35,313 in VAT for the 124
sampled eligible individuals not participating in the program.

For natural gas, 148 of the 244 Army civilians were not eligible to participate in the
UTAP because the utility bill was in the landlord’s name, the residence had a heat source
other than natural gas, or a participating UTAP company does not service their address.
According to our review of LQA records, only 57 of the 96 eligible civilians participate
in the program. For the 12-month period ending February 28, 2009, DOD paid $15,320
in VAT for the 39 sampled eligible individuals not participating in the program.

For water, 192 of the 244 Army civilians were not eligible to participate in the UTAP
because the utility bill was in the landlord’s name or a participating UTAP company does
not service their address. According to our review of LQA records, 30 of the 52 eligible
civilians participate in the program. For the 12-month period ending February 28, 2009,
DOD paid $698 in VAT for the 22 sampled eligible individuals not participating.

With assistance from the DOD Office of Inspector General Quantitative Methods and
Analysis Division, we projected the results from our 244 sample items to the population
of 2,438 civilians. Table 3 shows the results of this projection. See Appendix C for
detailed projections.




                                            6


          Table 3. Projected UTAP Eligibility and Non-Participation Rates
                              for All Army Civilians
     Utility     Population        Eligibility          Eligible Army                 Annual
                                                           Civilians                 VAT Paid
                                                      Not Participating              (Dollars)
  Electricity       2,438     2,258    93 percent    1,239     55 percent             $352,842
  Natural Gas       2,438      960     39 percent      390     41 percent              152,182
  Water             2,438      520     21 percent      220     42 percent                6,995
  Total                                                                              $512,019

Eligible civilians who did not participate in the UTAP cost the DOD $512,019 between
March 2008 and February 2009. Specifically, DOD unnecessarily paid $352,842 in
foreign taxes on electricity due to a civilian participation rate of 45 percent, $152,182 in
foreign taxes on natural gas due to a civilian participation rate of 59 percent, and $6,995
in foreign taxes on water due to a civilian participation rate of 58 percent.

Potential Savings to DOD
DOD could prevent overpayment of foreign taxes every year by mandating participation
in the UTAP for eligible DOD civilians. By making participation in the UTAP
                                                mandatory, DOD would reimburse
     For the sample population…the net          civilians for the one-time required
    potential monetary benefit could be at      enrollment fee of $77 (current maximum).
   least $468,283 per year or $2.8 million      For the sample population of 2,438, we
   over the Future Years Defense Program        estimated the cost of this enrollment fee
          (FYs 2011 through 2016).              reimbursement at $43,736 per year. This
                                                cost represents a 25 percent employee
turnover each year (610 civilians) and a 93 percent eligibility rate in the UTAP. The net
potential monetary benefit could be at least $468,283 per year or $2.8 million over the
Future Years Defense Program (FYs 2011 through 2016). Because the Air Force and
DODEA did not maintain the documentation we required for statistical sampling, the
above calculation is based on approximately one-third (2,438) of the DOD civilians
receiving LQA payments (7,596) during the 12-month period ending February 28, 2009.
See Appendix D for summary of potential monetary benefits.

Potential for Fraud
Employees may have an opportunity to defraud the U.S. Government of LQA funds since
                                                      DOD does not require eligible LQA
     Since DOD does not require eligible LQA          recipients to participate in the
   recipients to participate in UTAP, employees       UTAP as a prerequisite for
   may have an opportunity to defraud the U.S.        receiving LQA payments. As
            Government of LQA funds.                  mentioned previously, DOD
                                                      determines future LQA payments
based on the actual expenses incurred during their first 12 months in off-post housing.
Thus, if an LQA recipient registers for the UTAP after the reconciliation occurs, the LQA

                                              7


amount received in subsequent years would include the VAT paid by DOD during the
first year. For the remaining time overseas, the LQA recipient would then profit from the
difference between the tax-free utility costs and the amount reimbursed by DOD based on
the initial taxable utility costs. Implementation of our recommendation to require
participation of eligible participants in the UTAP prior to the receipt of LQA funds would
eliminate the possibility of this potential fraud.

Conclusion
DOD essentially relinquished control of the ability to maximize foreign tax savings by
leaving the decision to join the UTAP to the individual DOD civilian employee. Our
sample results show that DOD is not securing the maximum foreign tax relief possible.
Participation may be lower in a voluntary program, particularly when participation
requires a civilian employee to expend personal funds to save the Government money.
Making the UTAP mandatory for eligible civilians as a condition of receiving LQA and
reimbursing the enrollment fee for participation would increase participation and DOD
savings.

Recommendations, Management Comments, and Our
Response
Redirected and Renumbered Recommendations. As a result of management comments,
we redirected Draft recommendation 2 to the Under Secretary of Defense of Personnel and
Readiness. As a result, Draft Recommendations 1.a., 1.b. and 2 have been renumbered as
Recommendations 1, 2, and 3, respectively.

We recommend that the Under Secretary of Defense for Personnel and Readiness:

       1. Develop regulatory guidance requiring civilian personnel agencies to
withhold the living quarters allowance until a recipient(s) submits proof of
participation or ineligibility in the utility tax avoidance program.

Under Secretary of Defense for Personnel and Readiness
Comments
The Under Secretary of Defense for Personnel and Readiness (the Under Secretary),
agreed with the primary finding of the report; that because the Utility Tax Avoidance
Program is not mandatory, DOD activities are not maximizing foreign tax savings, and
that regulatory guidance should be issued to make the program mandatory wherever it is
available. The Under Secretary stated that draft recommendation 1.a. (final
recommendation 1) is more stringent than necessary because it withholds funds for living
quarters expenses beyond just utilities. He suggested that a more reasonable rule would
be to withhold the utilities portion of LQA until the employee participates in the program.
In order to implement this recommendation, his office will issue regulatory guidance
making the Utility Tax Avoidance Program mandatory for all eligible employees. This
action will be completed by December 31, 2010.



                                            8

Our Response
The comments provided by the Under Secretary were responsive and meet the intent of
the recommendation. No additional comments are required for this recommendation.

       2. Develop regulatory guidance reimbursing living quarters allowance
recipients for the enrollment fee.

Under Secretary of Defense for Personnel and Readiness
Comments
The Under Secretary disagreed with our recommendation to reimburse the enrollment fee
as a separate expense. He stated that the Joint Travel Regulation authorizes a
Miscellaneous Expense Allowance to reimburse civilian employees for various costs
associated with a permanent change of station move including “disconnecting/connecting
appliances, equipment, and utilities involved in relocation.” The Under Secretary cited
that the UTAP enrollment fee is covered by the Miscellaneous Expense Allowance as a
cost for connecting utilities.

Our Response
The comments provided by the Under Secretary were responsive and meet the intent of
the recommendation. Using funds provided as part of the Miscellaneous Expense
Allowance will alleviate the need to separately reimburse living quarters allowance
recipients for enrolling in the tax avoidance program. No additional comments are
required for this recommendation.

        3. Develop a standard form for tax relief offices to complete, which will verify
living quarters allowance recipients’ participation or ineligibility in the utility tax
avoidance program in coordination with the U.S. Army Installation Management
Command - Europe Region.

Regional Director, U.S. Army Installation Management
Command - Europe Region Comments
The Regional Director agreed in principle to draft recommendation 2 (final
recommendation 3). The Regional Director agreed that a standard form documenting
UTAP participation should be documented and used; however, the Regional Director
recommended that draft recommendation 2 be redirected to an office responsible for
setting policy for matters associated with LQA, such as the Under Secretary of Defense
for Personnel and Readiness. The Regional Director also provided a sample form for
DOD to use as a basis for the development of a standard form for documenting UTAP
participation.




                                           9


Our Response
The Regional Director, U.S. Army Installation Management Command - Europe Region,
comments were responsive. We have redirected draft recommendation 2 (final
recommendation 3) to the Under Secretary of Defense for Personnel and Readiness and
requested that they provide a response by October 29, 2010.




                                        10


Appendix A. Scope and Methodology
We conducted this performance audit from February 2009 through May 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To evaluate the effectiveness of the UTAP, we first determined how many DOD civilians
were receiving LQA payments in Germany. The Defense Finance and Accounting
Service (DFAS) provided a listing of all LQA payments made to 7,596 DOD civilians
living in Germany from March 1, 2008, to February 28, 2009. This listing included DOD
civilians employed by the Army, Air Force, DODEA, and other DOD agencies.
However, the Air Force and DODEA personnel offices did not maintain the actual utility
bills for enough civilian employees for us to use statistical sampling. In addition, we
were unable to locate the servicing personnel office for some of the remaining civilians
who worked for DOD agencies with only a small number of employees stationed in
Germany. Therefore, we limited our scope to Army civilians because they were the only
group for who all necessary documentation was available.

Next, we determined utility costs, eligibility rates, and participation rates by reviewing
LQA reconciliation paperwork. We extracted Army civilians who received an LQA
payment in both March 1, 2008, and February 28, 2009, pay periods. This produced a
universe of 2,438 Army civilians receiving $26,057,989 in utility-related payments for
the period. We selected a sample of 244 Army civilians using statistical sampling
techniques. For each of the 244 Army civilians in our sample, we gathered LQA
reconciliation documents from U.S. Army Civilian Human Resources Agency - European
Region and U.S. Army Civilian Human Resources Agency - North Central Region. We
also gathered information regarding the utility companies who participate in UTAP from
IMCOM-E and USAFE UTAP offices. After analyzing this information, we were able to
determine actual utility expenses, eligibility for participation in the UTAP, and
participation rates. We based our projections, including potential monetary benefits, on
our universe of 2,438 Army civilians. See Appendix C for statistical sampling
information.

We requested data from the DFAS in March 2009; however, valid usable data was not
provided until June 2009. The delay was due to DFAS personnel having to write system
queries in order to extract the needed information and our making multiple requests upon
receipt of erroneous data.

We reviewed the status of forces agreement and guidance from DOD, U.S. European
Command, and U.S. Army Europe. Specifically, we reviewed DOD Instruction 5100.64,
“DOD Foreign Tax Relief Program,” March 30, 2006; U.S. European Command
Directive 45-8, “Foreign Tax Relief Program,” May 7, 2007; U.S. Army in Europe
Regulation 215-6 (also known as U.S. Air Force Europe Instruction 34-102), “Individual
Tax Relief Program,” August 3, 2009; U.S. Army Regulation 27-70, “DOD Foreign Tax
                                           11

Relief Program,” January 15, 1980; and North Atlantic Treaty Organization Status of
Forces Agreement Supplementary Agreement, Article 67 and 68, March 29, 1998.

We reviewed policies and procedures pertaining to the oversight of the UTAP in
Germany. The UTAP internal controls were effective, and we identified no internal
control weaknesses. The finding and recommendations contained in this report address
converting the UTAP program from voluntary-based participation to mandatory
participation.

Some figures in this report have been converted from Euros (€) to U.S. Dollars ($) for
ease of comparison and understanding. We used an average daily exchange rate for the
time period of our data (March 2008 – February 2009) of €1 = $0.69704 for this
conversion.

Use of Computer-Processed Data
We used computer-processed data obtained from the DFAS Defense Civilian Pay System
database. We tested the reliability and accuracy of the listing of personnel receiving
LQA in Germany by comparing sampled items to hard-copy records obtained from the
U.S. Army Civilian Human Resources Agency. Nothing came to our attention as a result
of the specified procedures that caused us to doubt the reliability of the computer-
processed data.

Use of Technical Assistance
The DOD Inspector General (DOD IG) Quantitative Methods and Analysis Division
assisted with the audit. See Appendix C for detailed information about the work
performed. In addition, we received legal opinions from the DOD IG and U.S. Army
Europe regarding the legality of our recommendation to make UTAP mandatory.

Prior Coverage
During the last 5 years, the DOD IG has issued one report addressing issues related to
DOD foreign tax relief policies and UTAP. Unrestricted DOD IG reports can be
accessed at http://www.dodig.mil/audit/reports.

DOD IG
DOD IG Report No. D-2010-030, “Utility Tax Relief Program in the Netherlands,”
January 6, 2010




                                           12


Appendix B. Foreign Tax Relief Criteria
DOD
The DOD Financial Management Regulation, 7000.14-R, vol 10, ch 6, “Federal, State,
Local, and Foreign Taxes,” February 1996, states that the U.S. Government’s right to
foreign tax exemptions is based on the tax agreements with foreign countries, which are
outlined in the Status of Forces or Government tax agreements.

DOD Instruction 5100.64, “DOD Foreign Tax Relief Program,” March 30, 2006,
prescribes the policies and procedures of the DOD foreign tax relief program, requiring
that DOD secure, to the maximum extent possible, effective relief from all foreign taxes
wherever the ultimate economic burden of those taxes would, in absence of such relief,
be borne by funds appropriated or allocated to the DOD or under the control of its non-
appropriated fund activities. Further, DOD Instruction 5100.64 states that when the cost
of effective tax relief outweighs the benefit to be obtained, tax relief should be considered
impractical.

U.S. European Command
As an extension to the DOD Instruction, Headquarters U.S. European Command
Directive 45-8, “Foreign Tax Relief Program,” May 8, 2007, assigned the Commander,
U.S. Army Europe as the designated Military Commander for the purposes of the Foreign
Tax Relief Program in Germany.

To provide policy and procedures for administering tax-free purchases of goods and
services in Germany, the designated Military Commander in conjunction with the
Commander, USAFE issued a joint publication Army in Europe Regulation 215-6/
USAFE Instruction 34-102, “Morale, Welfare, and Recreation Individual Tax Relief
Program,” August 3, 2009. The guidance covers only goods and services in the local
German communities as provided for by the status of forces agreement to official U.S.
forces procurement agencies, but not to individuals. IMCOM-E Community Morale,
Welfare, and Recreation Fund and USAFE Services Fund activities, as official
procurement agencies, are able to provide exemption from VAT when they act as a
purchasing activity on behalf of authorized members of the U.S. Forces and the civilian
component. When the German utility company participates in the tax relief program, the
goods and services may be procured tax-free through the IMCOM-E Community Morale,
Welfare, and Recreation Fund and the USAFE Services Fund operations; provided that
the transaction is properly conducted and the purchase is not prohibited.

North Atlantic Treaty Organization
Article 67 of the North Atlantic Treaty Organization Status of Forces Agreement
Supplementary Agreement, March 29, 1998, addresses taxation and customs duties for
goods and services rendered to foreign forces stationed in the Federal Republic of
Germany. Specifically, tax relief shall be granted when goods or services are procured
by an official procurement agency of a force or a civilian component for the use of, or
consumption by, the force, the civilian component, their members, or dependents. A
                                             13

letter from the German Federal Ministry of Finance, December 22, 2004, clarified
Article 67. The letter states, “Turnover tax/VAT (value added tax) relief pursuant to
Article 67, paragraph 3, the North Atlantic Treaty Organization Status of Forces
Agreement Supplementary Agreement is also possible for the supply of electricity, gas,
water, and heat.”




                                           14


Appendix C. Technical Assistance
We requested assistance from the DOD OIG Quantitative Methods and Analysis Division
to project our sample results to the 2,438 Army civilians in the population. The
projections were computed using 95 percent confidence levels. Each line of projection
provides the point estimate with associated lower and upper bounds for the relevant
measure.

We list the statistical projections provided in the two following tables. The first table
(C1) lists eligibility and participation values related to each utility (electric, gas and
water). The first section provides data related to electricity. The first row shows that
between 876 and 1163 households are eligible for and participate in the UTAP. The
point estimate of 1,019 households equates to approximately 42 percent of the total
population. The remaining rows and sections can be interpreted in the same manner.

The second table (C2) lists total costs for each utility and the taxes saved by participants
or incurred by non-participants. The first section provides data related to electricity. The
first row shows that DOD spent between €2,197,683 ($3,152,879) and €2,199,982
($3,156,178) for electricity for Army civilians in the population. The second row of data
shows that UTAP participants save DOD between €143,440 ($205,784) and €200,220
($287,243) annually. The third row of data shows that eligible non-participants cost
DOD between €207,964 ($298,353) and €283,927 ($407,332) annually. The fourth row
of data shows that DOD could save between €385,433 ($552,957) and €450,118
($645,756) annually if UTAP participation increased to 100 percent. The remaining
sections can be interpreted in the same manner.




                                              15


               Table C1. Statistical Projections – Number of Households
            Electric               Point Estimate    Lower Bound      Upper Bound
Eligible - Participating               1,019              876            1,163
Eligible - Non Participating           1,239            1,094            1,384
Total Eligible                         2,258            2,182            2,334
Total Non Eligible                       180              104              256

              Gas              Point Estimate     Lower Bound      Upper Bound
Eligible - Participating             570              446               693
Eligible - Non Participating         390              283               496
Total Eligible                       960              817             1,101
Total Non Eligible                 1,479            1,337             1,621

             Water             Point Estimate     Lower Bound      Upper Bound
Eligible - Participating             300              204               395
Eligible - Non Participating         220              137               303
Total Eligible                       520              400               639
Total Non Eligible                 1,918            1,799             2,038




                                       16


                                        Table C2. Statistical Projections - Utility Costs And Taxes
                                                       (Values Presented in Euros and Dollars)
                     Electric               Point Estimate                         Lower Bound                       U pper Bound
                                        Euros               Dollars          Euros               Dollars        Euros          Dollars
       Iolal Utility Cost             €2, 198,832         $3, 154,528      €2,1 97,683          $3,152,879    €2, 199,982     $3,156,178
                                                    U tility Tax Values (19 percent tax rate)
                                        Euros               Dollars          Euros               Dollars        Euros          Dollars
       Eligible - Participating       E17 1,830            $246,51 4        E143,440            $205,784      €200,220        $287,243
       Eligible - Non Participating     245,945             352, 843         207,964              298,353       283,927         407,332
       Iolal E ligible                  4 17,776            599,357          385,433              552,95 7      450, 11 8       645,756


                         Gas                Point Estimate                         Lower Bound                       U pper Bound
                                        Euros               Dollars           Euros               Dollars       Euros          Dollars
       Iolal Utility Cost             E1,464,848          $2, 101,526      E1,094,587           $ 1,570,335   E1,835,109      $2,632,71 7
17






                                                    U tility Tax Values (19 percent tax rate)
                                        Euros               Dollars           Euros               Dollars       Euros          Dollars
       Eligible - Participating       EI 72,245            $247,109         E11 0,858            $ 159,04 1   €233,63 1       $335,176
       Eligible - Non Participating     106,077             152, 183           59,393              85,207       152,762         2 19,1 58
       Iolal Eligible                   278,322             399,29 1          207,974             298,367       348,671         500,216


                         Water              Point Estimate                         Lower Bound                       U pper Bound
                                        Euros               Dollars           Euros               Dollars       Euros          Dollars
       Iolal Utility Cost             E166,296             $238,574         E109,816             $ 157,546    €222,776        $3 19,603
                                                    U tility Tax Values (7 percent tax rate)
                                        Euros               Dollars           Euros               Dollars       Euros          Dollars
       Eligible - Participating         €6,778              $9,274           €3,464               $4,970       ElO,09 1        $14,477
       Eligible - Non Participating      4,876               6,995             2,4 19              3,471          7,333         10,520
       Iotal Eligible                   11 ,654             16,7 19            7,700              11 ,046        15,608         22,39 1
Appendix D. Summary of Potential Monetary
Benefits
Recommendations     Type of Benefit            Amount of Benefit     Account(s)
1, 2, and 3.      Funds put to better           $2.8 million       Army Operations
                  use. Avoidance of
                  foreign taxes on
                  utility-related LQA
                  payments.




                                        18


Under Secretary of Defense for Personnel and Readiness
Comments

                                                                                                                        Final Report
                                                                                                                         Reference




                                        UNDER SECRETARY OF DEFENSE
                                              4000 DEFENSE PENTAGON
                                             WASHINGTON, D
                                                         D.C.
                                                           .C . 20301
                                                                2030 1 -4000


                                                      AUG       1{)10
                                                              2 1010
                                                                11110
   PI!RSONNEl
   PI!.ASO»lN,"L AND
                 ANO
       READINESS


               MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

               SUBJECT: Utility
                        Utility Tax Avo
                                    Avoid
                                        idance
                                          ance Program in Germany (project No. 0200
                                                                               D200
                                                                               D2009-
                                                                                    9-
                                                                                    9·
                        DOOOJB
                        DOOOJB-OI44.001)
                        DOOOJB-0144.001)
                                 ·OI44.001)


                       This responds to an Inspector General May 21, 2010 memorandum
               regarding the Utility Tax Avoidance Program in Germany
                                                                   Germany,, and provide
                                                                                  providess our
               comments on the Project Report. This office concurs with the report
                                                                                 report's
                                                                                        's basic
               fmding; that because the UUtility
                                           tility Tax Avoidance Program is not mandatory, 000  DoD
               activities are not maximizing foreign tax savings
                                                          savings,, and that regulatory guidance
               should be iss
               should      ssued
                             ued to make the program mandat
                                                       mandatory
                                                               ory wherever it is available.
                                                                                   available. The
               following comments arcare provided to the report 's recommendations.

                      Recommendation 1.    1. a. Requiring civilian personnel agencies to withhold
                                          Click to add JPEG file                                                      Renumbered as
              the livin
                  livingg quarters
                          quarters a ll
                                      llowance
                                        owance (LQA) until a rec   ipienn t submits proof of
                                                                recipie
                                                                recipient
              participation in or ineligibility for the
                                                     Ute Utility Tax Avoidance Program.                               Recommendation 1.
                      Comments:
                      Comments:: The
                      Comments                                                  Personnell &
                                     The Office of the Under Secretary for Personne        & Readiness
              (OUSD (P&R(P&R»» believes the recommendation is mor    moree stringent than it need
                                                                                             needss to be
              becausse it withhold
              because
              becau               ldss funds for living quarter
                                                        quarterss expenses beyond just utilities
                                                                                          utilities.. A
              more reasonable rule would be to withhowithhold
                                                            ld the utilities portion ofLQA until the
              employee participatcs
                          participates in the
                                           U,e program
                                                program..

                      Recommendation l .h     b... Reimbursing livjng
                                                                  li ving
                                                                     vjng quarters allowance recipients for
                                                                                                                      Renumbered as
              the enrollmen
                   enrollmentt fee.
                      Comments: The Jo       int Trave
                                          Joint    Travell Regu lation (JTR) in paragraph C5310
                                                           Regulation                                                 Recommendation 2.
              authorizes
              authhorizes a Miscellaneou
              aut            Miscellaneouss Expense Allowance (MEA) to reimbu        reimburserse civilian
              employees for various costscossts associa ted with a pennanent
                                         co                           permanent change of station move
              including " " di sconnccting/colUlccting
                               sconnecting/coIUle
                            disco nnecting/connecting      appliances.
                                                     cting appliances     equipment,, and utilities in
                                                           appliances,, equipment                      involved
                                                                                                         volved
              in rclocation.
                 relocation."  " In this office!s
                                         officers view,
                                                    view. in a mandatory program, tthe     he enrollment fee
                          con sidered a cost for connecting to utilitie
              would be considered                                            s, and thu
                                                                     utilities.      thuss is
                                                                                           is covered by the
              MEA. The MEA is reimbursed to the employee at a flat            fiat rate, generally $500
              without dependents or $1,000 with    with dependents, as applicable
                                                                            applicable.. The JTR authorizes
              payments above the flat rate, up to a maximum of the employee's   employee1s one-week
                                                                                cmployee
              (without
              (witho  ut dependents)
                         dependents) or two-week
                                           two·week (w   (with
                                                           ith dep
                                                               depeendents)
                                                                     nd ents) sasalary,
                                                                                  lary, but the employee
              must provide receipts         those increased expenses.
                           receipts to show those



                                                                                                                  ,

                                                                                                                  I
                                                                                                                  I
       OUSD (P&R) understand
                        understandss that a deregulation policy for energy providers
in Germany has been imp    lemented,
                        implement ed, resulting in a more competitive energy markemarket.t.
Thus, the Util
           Utiliity Tax Avoidancc
                        Avoidance Program can be pre  presented
                                                          sented to the German utility
companies in DoD's position as a "   IIbu lk buyer" of energy, and thus qualify for
                                       bulk
lower energy rates, in addition to being free
                                            tree of va lue added tax. 'T herefore, the
                                                                       Iberefore,
potential savings may exceed the relief described in the Inspecspector
                                                                     tor General Rep0l1.
                                                                                 RepOlt.

         In order to implement Recommendation La., this office will issue
regulatory guguiidance maldng
                       making the Utility Tax Avoidance Program mandatory for all
eli gible employees. This action will be completed
                                          completcd by December 31, 20 I 0,
                                                                         O.




                          Click to add JPEG file




                                                                                              ,,
U.S. Army Installation Management Command – Europe
Region Comments




   9~ :": "':
       IMeG
       IMCG
                      ••• n
                                          DEPARTMENT OF THE ARMY
                                       "liMY' INSTA
                                    US ""M'
                                       "'''M'
                                                11 Jf
                                                   JfFR:ASON
                                                   JEFf:t:ASON
                                                               ~AHAGEM~NT
                                                               MAHAGEM~HT COMIoIANO
                                                      LLAOON MAHA(j.EMfHT
                                              INST,II,LLAOON
                                            25'1
                                            2'5       Ff:t:ASON DAVIS
                                                 ARLlHCTON
                                                                OAVIS IdGKW4v
                                                 ARLINGTON , VA l2202
                                                                      HJGtnv4V
                                                                        ·l'2&
                                                                  l2202·392&
                                                                              COM.'ANO




       MEMORANDUM FOR OUice       omce
                              QUice of Ihe
                                         the In
                                             Inspector
                                                speclor Ge
                                                specto  Genert!l,
                                                           ne ri!I,, Departm
                                                           ner.l     Department
                                                                     Deparlrn e nt 01 De fense
                                                                                m Of     fense.
                                                                                          ense .,
       400
       400 Army Navy D
                     Drrive
                       rive . Arlington
                              Arllnglon.. VA 22202

       SUBJECT
         UBJECT. Audit 0 1 Wilily  Ta x AV
                           Utility rax
                                   Tax   voidttnce
                                          OIdance P   ogram in German
                                                   Prrogwm     Germanyy (Pl ajcc!
                                                                            ojcel No 02009.
                                                                            ojCC!    0 2009.
       D
       DOOOJB-OI
        OOOJB-OI 44
                 44..00lj
        OOOJB·0144   001)


       ' . Ref
           References
               e rences
                 ren ces::

        a. DODIG Report . Aud,
                             Auditt of
                             AudIt               yT
                                    o f Ut ili tty  a x Avoidance Prog
                                                   Ta             Program
                                                                       ram in Germ
                                                                              Germany
                                                                                   a ny .
              20 10 ((enc
      May 21. 2010    enClo
                      enc losure
                            sure I)
                                 1)..

         b. Memorandum
              Memo ,.ndum.. IMEU             R. 17 June
                                   IMEU··-IIIR.    Jun e 2010 ,. s ubject
                                                                   ubject: Command ReplRepl
                                                                                         eplyy ., DODIG
                                                                                                  OOOIG D'all
                                                                                                        Orall
                                                                                                        Drafl
           rt.. Aud
      Report
      Repo
        eport   Aucillit of Utility Tax Relief Progr
                                                 Program
                                                       am In Germany (e    enc
                                                                            ncllO
                                                                                OSuro
                                                                                OSuro
                                                                                  Suro 2) .

       2. The
           h e US Army InsInstallat
                              tall     Click to add JPEG file
                                   ation
                                     ion Management Comll1ancf
                              tallation                Command
                                                       Comll1and (IMCOM
                                                                   IMCOM)) has reviewed
                                                                               (eviewed Ihethe
      ssubjeci
        ubject dr     report and the IMCOM·Europe
                  aft report
               draft                    IMCOM-Europe command comments . The actions taken by
      IMCOM-Europe
      IMCOM-Eu'Ope address
      IMCOM·Europe       a ddress Ihe               recommendation made by
                                     lhe applicable recommendatioo        by your
                                                                             your office
                                                                                   office.. IMCOM
      concurs  wIth the recommendation and corre
      concur'S with                                corrective
                                                        ctive actions

      3. The




      2 enels
        enels
         ncls                                        ~
                                                     ;;?;-
                                                     ;;?!R-
                                                          lieulenant General. USA
                                                          lieutenant
                                                          Commanding




                                                                            21
                                   DEPARTMENT OF THE ARMY
                       UNITED S
                       UNITal  TAres
                              ST.t.TES ARMY lN3TAt.LATlON
                                            tNSTAlLAOON ..... NAGEMENT
                                                          MANAG  EMENT COMMAND
                                           EUROPE REGION
                                         UNIT 2tl5l     *
                                                        :roo
                                              29353,. 80X
                                         APOAE"O!01~O
                                         APOAf"O!10144nO(1



IM
l~ F. I
      I ··IR
         - IR




MI:::~()RJ\NDtJM FOR Commander
MEM()RANDUM             Commander,, Un   ited States
                                      United         Army Installation Management Command.
                                              Slates J\rmy                        Command .
2S II Jefferson Davis Highway. ArJ
2511                           Arliing1on.
                                    ng1on. VA 22202-3926

SUBJE CT:              Replyy, OODIG Draft Repo
        CT: Command Repl                   Reportrt,, Audit of Utility Tax
                                                                       Ta.'( Relief
                                                                             Relicf Program in
(i-crmany (ProjeCl
(icrmany               D2009-DOOOJR-OI44
          (Projcct No. D2009·DOOOJR-O  I44..00I)


                                                   repon and concurs with
IL. IMCOM-Europe has reviewed the subject draft report                       comments to the
                                                                      ""'ith commcnts
recommendation. conclusions,, and discussions . Spec
recommcndation. conclusions                      Specific
                                                     ific comments co nccrning the
                                                                   concerning
                                      cnclo~cd .
retommendalion and targl".'1 date are cnclO:oicd
recommendation

   ThePOCis
2. Tho:           • • • • • • • • • • • •~~• • • • • • • • •1
                llllllllllllllllllllllllll~~1I1I1I1I1I1I1I1I1I1
       :- POC is•

                                                (( ,-:~:.::J
                                                        :-::J
Ene!
Encl
                                       O  -
                               Click to add JPEG file
                                                                '----~
                                                                "---~
                                                      DlA>-<E M. DEVE:'-IS
                                                      DIA>'<E    DEVE:<S
                                                      Director




                                                                                                 )
                                                                                                 ~




                                                                  22
                                                                                                              Final Report 

                                                                                                               Reference






                                     IMCOM -Europe Repl
                                     IMCOM-Europe        y 1to0
                                                     Reply
                                      On" OODIG Report for
                           Utility Tax Avoidance Program in Germany
                           Ulility                             Germa ny
                               (Project No. D2009
                                            DZ009-DOOJB-OI44.001)
                                                  -DOOJB-OI44.001)

                UTILITY TAX AVOIDANCE PROGRAM PARTICIPATION

Objective:
Objedive: To dete rmine w hether DOD is effective
              determine                 effectivelly using the Uti lity Tax Avoidance Program
(UTAP) in Germany
           Germany..

Conclu          DOD has not effectively used
        sion: 000
Co nclusion:                                   thee UTAP in Germany
                                         uscd th             Germany.. Not all
                                                                            a ll cligib
                                                                                  eligiblle civilian
      nnel stationed in Germany have participated in the UTAP . During the I March 2008 and
personnel
perso
28 february             periods,, 124 eligible individuals in a sample of244 Army
   February 2009 pay periods                                                     Anny civilians
receiving living quarters allowance (LQA) did not participate in th thee program . This occ OCCUlTed
                                                                                               urred
because DOD did not require all eligible Army civilian personnel to partiparticc ipat
                                                                                 ipatee in the program
                                                                                               program..
As a resu lt,, DOD is not maximizing foreign tax savi
       sult                                             ngs in accordance with DOD Instruction
                                                    savings
5100 .64 .

                                   For th
                                        thee Regional Director.
                U.S. A rmy Installation
                           [nst.llation Ma
                                         Manageme
                                             nagement
                                                    nt Command,
                                                       Command. Europe R egion

Recommendation 2.
Recommendalion        2. We recommend the Regional Dire<:tor
                                                        Director develop and implement a s tandard          Redirected and
form
fonn for tax relief offices to comp
                                 complete,
                                      lete, whicb will verify LQA recipients' participation or              renumbered as
ineligibility in the utility tax avoidance program
                                            program..                                                       Recommendation 3. 

Action Taken. Concur in PMDtiplc
                              PriDciple.. We agree that a standard fonn
                                                                      form documentin
                                                                             documenting g lIT
                                                                                           UTA AP
                hould be developed and used
participation s hou1d                       sed.. However,
                                                   owever, th
                                                            thee reco
                                                                 recommendation
                                                                      mmendation sho   uld be redirected
                                                                                    should
       usn ,
to the usn, Personnel and Readiness
                              Readiness,, re sponsibl
                                             sponsible for setti
                                                           settinng po
                                                                    polic
                                                                       licyy or making discretionary
dec isions about UTAP participation and LQA. Attac
decisions                                                hed is a sample of the fonn for DO
                                                    Attached                                 DODD use as
a basis to develop a fonn 10
                           ( 0 meet their requirements
                                           requirements..




                                                                                                     Encl
                                                                                                     Ene!




                                                                   23
                                    UTAP Statement of Availability
 last Name:          Snuffy                                               100B:       29. Feb. 1999
 First Name:         John                                                  SSN,       222-22-222
 APO Address:        CMR 420, Box 0                                        Rank:      GS-13
 APO AEZ;p,
     AEZ;p'          09063

 lZlooo
 18)000         Deontractor
                D Contr.>ctor (TESA)            o Other (Explainl _ _ _ _ _ _ _ __ __
                                                       Other (Explainl _ _ _ _ _ _ _ __ _ _


 Germ~n    Street Address:

 Address line 1:     Hauptstrasse 56
                                  56
 Address line 2:     Apt. 4
               Citv: 69126 Heidelbenr:
 German Zip & City:         Heidelbenl

           Used. Ay~lI~bility.
 Utilities USflt. A"'illI~bility, ..
                                  il nd Elialbllity:
                                        ElIllbllity:

!Dwelling
 ~tilities in             UTAP available In
                          area (existing VAT
                                                       In Name of
                                                       US
                                                       US Tenant
                                                                        In Name of
                                                                        landlord
                                                                        Landlord
                                                                                             UTAP VAT-Free
                                                                                             Billing Granted
                          contracts)               I   (eH.;ble)
                                                       (eli.;ble)   I   (;neH.;ble)
                                                                        (;oon,lble)          Fo r:
                                                                                             For:
 Electricity                         X                       X                                        X
 Gas                                                                            X
 Water                                   Click to add JPEG file                 X
 District Heat                       X                                          X

 Eligible DOD Servlce
              service Member/
                      Member/Employee
                              Employee sign-up date:                     25. May 2010

 Fee Paid:       $77.00




 VAT OffICe
     Office Signature and Stamp

 Data requlr~ by the Privacy Act of 1914
                                       1974 (5 USC 5522):
     a. Authority: 10 USC 3012; Supplementary Agreement to the NATO SOFA. SOFA, Article 67, paragraph
 3a{alll); and AE Regulation 21S·6jUSAFE
 3ala)(I);                   21S· 6jUSAFE Instruction 34-102.
                                                       34·102.
     b. Principal Purposes: Serves asas proof of mandatory
                                                 manda tory UTAP enrollment or non·enrollment depending
 on availability
    availabitity for LOA purposes.
     t . Routine Uses: To provide information needed to process
     c.                                                    process LOA and for reimbursement of sign-up
 fee
 f•• ($77).
     ($17).
     d. Mandatory or Voluntary Disclosure and Effect
                                                 Effed: of Not Providinc Information:
                                                                         InformOitlon: Disclosure of
 Information
 information is voluntary. Utility reimbursement in conjunction with
                                                                wit h LOA, however, cannot be provided
 without the requ
             requested
                  ested information.


 AE
 AE Form 21S-XX,
         21S·)()(, May 2010




                                                                                      24
